<html>
<title> - ELECTRIC BATTERY PRODUCTION AND WASTE: OPPORTUNITIES AND CHALLENGES</title>
<body><pre>[Senate Hearing 116-53]
[From the U.S. Government Publishing Office]




                                                              
                                                         S. Hrg. 116-53

  ELECTRIC BATTERY PRODUCTION AND WASTE: OPPORTUNITIES AND CHALLENGES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                             JULY 17, 2019

                               ----------                              

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
 
 


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        

  ELECTRIC BATTERY PRODUCTION AND WASTE: OPPORTUNITIES AND CHALLENGES
  
  
  
  
  



                                                         S. Hrg. 116-53
 
  ELECTRIC BATTERY PRODUCTION AND WASTE: OPPORTUNITIES AND CHALLENGES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2019

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
  
  
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                              ______

                U.S. GOVERNMENT PUBLISHING OFFICE 
 37-496 PDF               WASHINGTON : 2019
       
        
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS
                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
              
              
                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JULY 17, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..    20

                               WITNESSES

Sanders, Michael, Senior Advisor, Avicenne Energy US.............    94
    Prepared statement...........................................    97
Greenberger, James J., Executive Director, National Alliance for 
  Advanced Technology Batteries International....................   106
    Prepared statement...........................................   108
Chawan, Ajay, Associate Director, Navigant Consulting, Inc.......   115
    Prepared statement...........................................   117

                          ADDITIONAL MATERIAL

Submitted by Senator Barrasso:
    The Cobalt Pipeline, by Todd C. Frankel, Washington Post, 
      September 30, 2016.........................................   260
    The rise of electric cars could leave us with a big battery 
      waste problem, by Joey Gardiner, The Guardian, August 10, 
      2017.......................................................   298
    The Real Cost of Your Phone, by Rebecca Zissou, http://
      upfront.scholastic.com, October 30, 2017...................   302
    Comparative Study on Life Cycle CO<INF>2</INF> Emissions from 
      the Production of Electric and Conventional Vehicles in 
      China, by Qinyu Qiao et al., Energy Procedia, 105 (2017) 
      3584-3595..................................................   306
    Amnesty challenges industry leaders to clean up their 
      batteries, http://amnesty.org, March 21, 2019..............   318
    Saving the Planet With Electric Cars Means Strangling This 
      Desert, by Laura Millan Lombrana, Bloomberg, June 11, 2019.   322
Letter to Senators Barrasso and Carper from the Institute of 
  Scrap Recycling Industries, Inc., August 2, 2019...............   332


  ELECTRIC BATTERY PRODUCTION AND WASTE: OPPORTUNITIES AND CHALLENGES

                              ----------                              


                        WEDNESDAY, JULY 17, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:05 a.m. in 
room 406, Dirksen Senate Office Building, Hon. John Barrasso 
(Chairman of the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Braun, 
Rounds, Sullivan, Boozman, Ernst, Cardin, Whitehouse, Merkley, 
Markey, Duckworth, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this hearing to 
order.
    The purpose of today's hearing is to evaluate the 
environmental challenges and opportunities associated with 
increased battery demand as well as disposal.
    The global market for electric vehicles is expected to rise 
in the coming years. By 2025, up to 90 percent of the global 
market for lithium ion batteries will come from electric 
vehicles. This increase in demand, left unaddressed, will 
exacerbate current challenges associated with battery 
production and waste.
    Lithium ion batteries use a number of critical minerals. 
They include lithium, cobalt, graphite, and rare earth elements 
as well. The United States and the rest of the world have 
allowed China to dominate control over the production of these 
minerals. China exerts substantial control over mining 
operations in countries with vast reserves, including the 
Democratic Republic of the Congo and Chile.
    In May, Foreign Policy published a report entitled--I will 
hold it up here--Mining the Future: How China Is Set to 
Dominate the Next Industrial Revolution. So I would like to 
enter this report into the record, without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Barrasso. The Secretary General for Amnesty 
International has stated that, ``Every stage of battery life 
cycle, from mineral extraction to disposal, carries human 
rights and environmental risks.'' Approximately 60 percent of 
the world's cobalt is currently mined in the Democratic 
Republic of the Congo.
    This photograph shows a child cleaning cobalt there. It is 
a child in the Congo.
    Jim, you take a look, I know you have been in that country.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. In Chile, lithium production is affecting 
the local water supplies. The evaporation process to produce 
lithium requires pumping brine into pools like the one pictured 
here.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. China also has a hold on battery 
manufacturing. Chinese battery production also has significant 
environmental impacts. As we all know, China's environmental 
regulations are not on a par with ours.
    China uses less advanced manufacturing techniques than the 
United States. One study found that producing a lithium ion 
battery in China emits about three times as much carbon dioxide 
as producing the battery in the United States.
    Environmental challenges continue once a battery reaches 
the end of its life. Lithium ion batteries are recycled at a 
rate of less than 5 percent. Between 2018 and 2030, over 11 
million tons of spent lithium ion batteries will be discarded 
across the world.
    Now is the time for this Committee to evaluate the looming 
waste challenge as well as the opportunity that it presents. I 
say opportunity, because we have had past successes with other 
types of battery recycling in this country. About 99 percent of 
lead acid batteries from cars and trucks are recycled today--99 
percent.
    In the case of lithium ion batteries, recycling could have 
multiple benefits. First, it could cut down on the waste that 
goes into landfills, and in landfills, if not carefully 
managed, lithium ion batteries pose fire risks as well as 
electrocution risks.
    Recycling also could cut down on emissions and other 
environmental impacts. From its creation to its disposal, an 
electric vehicle can have higher environmental impacts in some 
areas than a standard automobile. For example, an electric 
vehicle over its full life scale consumes more water resources 
than your average car. Emissions of sulfur oxides are also 
higher.
    In addition to enhancing environmental and sustainability 
goals, recycling can also address broader economic and security 
risks. If we recycle more, we can rely less on overseas 
production of the raw materials. Recycling should be part of a 
broader discussion that also includes more raw material 
production and battery manufacturing here in the United States.
    If the pace of electric vehicle demand continues, recycling 
alone will not be enough. My home State of Wyoming contains 
substantial reserves of critical minerals, including rare earth 
elements.
    I am a co-sponsor of S. 1317, the American Mineral Security 
Act, which is sponsored by the Energy and Natural Resources 
Committee, with Chairman Murkowski and Ranking Member Manchin, 
so it is bipartisan. That bill passed the committee yesterday. 
The bill recognizes we must improve the permitting process to 
produce more critical minerals in the United States.
    Before we move to our witnesses, I would like to turn to my 
friend, colleague, and Ranking Member, Senator Carper, for his 
remarks.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    Again to our witnesses, welcome.
    There is a very young son, 10-year-old son sitting behind 
one of our witnesses, who is there to keep an eye on his dad. 
We are going to watch and see if his lips move when you speak. 
We will see how that goes.
    [Laughter.]
    Senator Carper. I also would like to ask a couple of 
unanimous consent requests to submit for the record, three 
documents. One is by McKinsey and Company that highlights the 
untapped opportunities of recycling electric vehicle batteries 
to meet our future electric vehicle battery mineral needs. The 
second is a recent article by OilPrice.com. That article 
highlights the tens of millions of dollars being invested by 
folks like Toyota, Tesla, and some U.S. startup companies in 
more sustainable batteries.
    And the third is a study by the Institute for Sustainable 
Futures, which found policies that encourage recycling and 
responsible electric battery sourcing can promote global 
environmental stewardship and help address the human rights 
concerns raised by our Chairman, with battery recycling being 
the most important policy.
    I would ask unanimous consent to submit those.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    Senator Carper. I would also add that I appreciate very 
much our Chairman's concern for human rights in the context of 
mining conduct overseas. As we know, issues related to labor 
practices and the treatment of workers go well beyond just the 
extraction of minerals currently needed to produce electric 
vehicle batteries. I am confident that our Chairman's 
comments--and I hope mine as well--mean that we will join 
together in crafting, with our colleagues, and passing 
legislation that makes major investments in all electric waste 
recycling infrastructure to recover critical minerals, but also 
provide real investments in research, development, and 
deployment of the next generation batteries that don't need any 
of the mined materials that are causing the concern that he has 
spoken to.
    As the Chairman knows, my colleagues may know, I have been 
eager for our Committee to foster meaningful dialogue about the 
importance of recycling. I want to thank him for holding 
today's hearing. It is what I hope will be the first of any 
number of conversations about what our country can do to 
improve recycling education and infrastructure, and producer 
responsibility.
    I have said in this Committee many, many times, in 
adversity lies opportunity. There is plenty of adversity here 
on this front, but there is also a lot of opportunity.
    Today, we get to focus on a couple of my favorite issues, 
that is electric vehicles and recycling. I expect we will learn 
more today about how investments in each of these areas can 
support the other.
    Our country's transportation sector is currently the single 
largest source of greenhouse gas emissions in America. It 
wasn't always that way, but it is today.
    We know that promoting zero-emission vehicles, such as 
electric vehicles--including them, but also, I would add 
hydrogen powered vehicles using fuel cells and others as well--
it is one of the best ways we can modernize and clean up our 
transportation sector. More electric vehicles on our roads 
means easier air, a better climate, and less reliance on 
foreign oil.
    We also know that while electric vehicles are already one 
of the cleanest vehicles available today, over time, they are 
only going to get cleaner as the power sector that charges the 
electric vehicles gets cleaner. I am certainly not the only one 
who sees the vast environmental and economic benefits of 
cleaner cars. Cities across the country and countries like 
China and Norway are investing significantly to transition to 
electric vehicles. I have seen it with my own eyes in my visits 
to those countries.
    Today, you could ask almost every car manufacturer where 
the global vehicle market is heading, and they will tell us 
that electric vehicles are the future. That doesn't mean we are 
going to have every car, truck, and van on the roads in 10 
years to be an electric vehicle; that is not true, or a 
hydrogen powered, or powered by natural gas. But a lot of them 
will be. We will still have vehicles powered by diesel, still 
have vehicles powered by gasoline as well. But given the 
challenges we face on climate change, it is important that we 
move away from those over time. I think we will.
    But as the global market for electric vehicles grows, so 
will the demand for the raw materials needed to make the 
batteries that power them. Production of electric vehicle 
batteries, just like the production of smart phone batteries, 
requires critical minerals, such as lithium and cobalt, many of 
which are not mined in the USA.
    Some of our colleagues believe we must eliminate or lower 
mining and environmental standards to keep up with the 
increasing demand. I just don't agree with that. I would remind 
us that the damage we have seen incurred by cutting corners in 
hard rock mining regulations; local communities pay the price 
in many cases, in environmental and health effects, sometimes 
for generations.
    I am confident that the critical mineral mining industry 
can meet the new demands of the market forces and produce more 
here at home without endangering human health and our 
environment. It is important that we do that.
    Some of our colleagues will also say that we need to wait 
to make real investments in electric vehicles until we have 
made investments in domestic critical mineral mining. I think 
that is a little bit like saying, we need every American to use 
a rotary phone until we mine more for cell phone batteries. It 
is what is called a logical fallacy. I don't know that it is 
realistic.
    For automakers to be competitive in the global market, we 
can no longer delay investments in electric vehicles in this 
country. Fortunately, more mining isn't the only solution. 
Manufacturers are hard at work to create a more sustainable 
electric vehicle battery, one that needs fewer critical 
minerals.
    And of course, technology is rapidly evolving. Just as the 
cell phones used 5 years ago are significantly different than 
the ones we use now, the kind of vehicle batteries we use today 
will not be the same batteries we used 5, 10, or 15 years ago.
    We don't, however, need to wait for better battery 
technology to have a more sustainable electric vehicle battery. 
Using today's technology, we can recycle critical minerals and 
other materials found in electric batteries that fuel our 
vehicles and our gadgets. Electric waste, or e-waste, was once 
destined for the landfill, but now can live a new life as 
another product, if recycled properly.
    In fact, critical minerals can be infinitely recycled 
without losing any of their properties. Imagine that. Battery 
recycling also reduces our need for new critical minerals, 
reduces the carbon footprint of an electric battery, and 
creates economic opportunities through good paying recycling 
jobs.
    China and the European Union have, or will soon have, laws 
in place that require automakers to take on the responsibility 
of recycling spent batteries. This incentivizes automakers to 
find a new purpose for these batteries and recover the minerals 
in them.
    Clearly, other countries are stepping up to the plate when 
it comes to investments in electric vehicle battery recycling. 
It is time for the U.S. to get into the game.
    The last thing I would say is, I read in the media this 
past week that Ford Motor Company has joined with a major 
European auto company to develop a new generation of electric 
vehicles. Does anybody know who the partner is in Europe?
    Mr. Sanders. Volkswagen.
    Senator Carper. Volkswagen, there you go. That is an 
interesting partnership, but frankly, I think, a very 
encouraging development. We look forward to hearing more about 
what the U.S. can to do ensure that we reap the environmental 
and economic benefits of e-waste recycling and how we can help 
enhance recycling infrastructure and technologies.
    We are delighted that you are here. Thank you so much for 
joining us.
    Mr. Chairman, thank you so much for calling this hearing.
    Senator Barrasso. Thank you, Senator Carper.
    I now look forward to welcoming our distinguished panel of 
witnesses and experts.
    The Committee today welcomes Michael Sanders, who is the 
Senior Advisor of Avicenne Energy.
    Additionally, James Greenberger, who is the Executive 
Director of the National Alliance for Advanced Technology 
Batteries International, known as NAATBatt, and Ajay Chawan, 
who is the Associate Director of Navigant Consulting.
    We welcome all of you.
    I would like to remind the witnesses that your full written 
testimony will be made part of the official record, so I ask 
that you try to keep your statements to 5 minutes, so we will 
have plenty of time for questions.
    Senator Carper. Could we ask our third witness to introduce 
the family member that is the audience?
    Senator Barrasso. We will do that when we get to him.
    Let me start first with Michael Sanders.
    Thank you.

                 STATEMENT OF MICHAEL SANDERS, 
               SENIOR ADVISOR, AVICENNE ENERGY US

    Mr. Sanders. Chairman Barrasso, Ranking Member Carper, and 
members of the Committee, thank you for the opportunity to 
provide testimony concerning the environmental issues and 
opportunities in the use of electric batteries.
    I am a senior analyst at Avicenne Energy, which is a 
premier market research and consulting firm, focused on 
rechargeable battery markets and their opportunities. I have 
nearly 16 years' experience in the battery market, and I am now 
advising many companies in this space.
    Electric vehicle demand is growing very rapidly, being led 
by China, both for full electric vehicles and buses. China led 
with clear direction, along with substantial support and 
vehicle subsidies. But most of these are expiring. However, the 
mandates for electrification remain in place.
    Many of the EU countries and cities have also established 
dates for full conversion to electric vehicles. A large group 
of U.S. mayors recently released a target to purchase a large 
number of electric buses, and the charts in the deck basically 
highlight a lot of the data that is behind the testimony. You 
see in the charts the growth of electric vehicles worldwide.
    From a U.S. perspective, the number of electric vehicles 
that are forecast are for a half-million vehicles in 2020, a 
million-five by 2025, and 3.7 million vehicles by 2030. This 
demand projection is based on current global regulations, 
supply chain development, known vehicle launches, expected cost 
improvements reaching cost parity, and the growth in transit 
and utility vehicles.
    The second market that you all asked questions on was the 
energy storage system market. Demands are much lower in that 
market, but it is starting to grow fairly rapidly.
    The cell production is continuing to expand in China. Many 
announcements and constructions have begun in the EU, and the 
U.S. only has one major announcement for additional 
manufacturing.
    In the EU, the plants are mainly by the current industry 
leaders. Some OEMs have done investment with some of the start 
ups, and there are two pending government consortiums, one in 
Germany and one in France.
    Lithium ions are made up of many different types of 
components to produce the cell. The value chain map starts 
basically with the main components of the battery and ends with 
the OEMs. This is a very well established value chain, and cell 
plants have been established in the U.S. But most of the raw 
materials still come from Asia. We are seeing major expansion 
in cell plants in the EU, and that is leading to raw material 
suppliers also expanding in the EU.
    The industry is very risk averse, which provides only 
limited opportunities for new companies to enter this space. 
The U.S. has industry leaders that produce metals raw materials 
in many different areas. They go into cathode and salt such as 
lithium.
    There have been many announcements on lithium investments 
in the U.S., but for these investments to become a supplier, 
these companies will need to demonstrate products that meet the 
quality requirements for batteries and also are cost 
competitive.
    In cathodes, cobalt is a major component, and the U.S. does 
not have a significant position. Significant development has 
been progressing for low cobalt or no cobalt containing cathode 
systems. OEMs have gone to significant efforts for materials 
traceability to ensure that the supply is responsibly sourced.
    Nickel is much more abundant. The U.S. is in better 
position to provide nickel precursors and the advanced types of 
nickel that are required for batteries. Aluminum is also used 
in cathodes, current collectors, cell casing, and structural 
components.
    The U.S. is in a very good position in aluminum, with major 
producers like Alcoa, Novelis, and Granges.
    Recycling of lithium ion batteries and establishing a 
complex value chain is being led by China. They began with 
guidance documents in the 1990s, moved to requirements for 
recycling for electric vehicles and consumer electronics. 
Substantial development has been completed in spent battery 
collection centers to prepare batteries for recycling and 
transportation hubs.
    The industry leaders have established recycling processes 
that can recover metal precursors. The piloting facilities have 
not reached profitability yet, but with larger scale facilities 
we are projecting them to become profitable shortly. Korea is 
gaining ground rapidly on China to support their large cell 
producers. The EU has established battery recycling mandates 
that require 50 percent of the materials to be recycled into--
and there is a major meeting this week in the EU to discuss 
raising that to a normal level.
    The U.S. could play an ever increasing role in the value 
chain. The first major change is for additional cell plants to 
be built locally and also materials demand. Second is for local 
components manufacturing, and finally to establish meaningful 
recycling. This should offer significant opportunities for the 
U.S. to become more relevant while managing the environmental 
and safety concerns. I think the ``China-like'' model of 
starting the process by establishing targets, assisting 
facilities for collecting and recycling could go a long way in 
demonstrating commitment and getting results.
    I thank you for the opportunity today to provide my 
testimony. I look forward to answering additional questions and 
supporting the Committee's work in the future.
    [The prepared statement of Mr. Sanders follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
        
    Senator Barrasso. Thank you very much, Mr. Sanders.
    Mr. Greenberger.

STATEMENT OF JAMES J. GREENBERGER, EXECUTIVE DIRECTOR, NATIONAL 
    ALLIANCE FOR ADVANCED TECHNOLOGY BATTERIES INTERNATIONAL

    Mr. Greenberger. Good morning Chairman Barrasso, Ranking 
Member Carper, and members of the Committee.
    My name is James Greenberger. I am the Executive Director 
of NAATBatt International, a trade association of about 120 
corporations and research institutions working to promote 
advanced battery technology and the industries it will power in 
North America.
    The subject of my testimony is the important role that 
recycling of lithium ion batteries can play in developing new 
industry and supporting reduction of greenhouse gas emissions.
    Advanced battery technology will be one of the most 
important technologies of the 21st century. Lithium ion battery 
chemistry, which was invented in the United States, represents 
the most powerful new battery technology widely used in 
commerce today.
    Lithium ion batteries not only power but enable electric 
vehicles, wearable and implantable medical devices, mobile 
robotics, consumer electronic devices, drones, the Internet of 
Things, high energy weapons, and a variety of other new 
electric devices. Several new technologies will shape human 
society in the 21st century. Advanced battery technology will 
be but one of them.
    But advanced battery technology is unique in that it will 
enable many of those other technologies. Nations wanting 
leadership in those technologies will need a vibrant, advanced 
battery industry within their borders.
    For the United States to have a vibrant lithium ion battery 
industry, it needs to ensure that U.S. based manufacturers have 
access to the energy materials and compounds needed to 
manufacture batteries. Few of those energy materials, such as 
lithium, nickel, and cobalt, are found in great quantities in 
the United States, and almost none of the chemicals into which 
those energy materials must be processed to make batteries are 
manufactured here currently.
    Recycling lithium ion batteries used in the United States 
offers a partial solution to this supply chain problem. 
Recycling batteries can create a strategic reserve of battery 
materials which can provide supply and some assurance of price 
stability to domestic manufacturers.
    Building a strong lithium ion industry in the United States 
is critically important. Few other industries have the 
potential to create more jobs--both upstream and downstream of 
their immediate products--than advanced battery manufacturing. 
As we have long pointed out at NAATBatt, who makes the 
batteries will one day make the cars.
    Recycling high voltage lithium ion batteries is also 
important for the environment and for public safety. Making 
lithium ion battery cathode materials from recycled batteries 
can use as little as 18 percent as much energy, 23 percent as 
much water, and produce only 9 percent as much SO<INF>x</INF> 
emissions as producing those compounds from virgin materials.
    Recycling high voltage lithium ion batteries at the end of 
their useful lives also removes them from potential contact 
with incautious adults and curious children. A high voltage 
battery, no longer powerful enough to power a car, is still 
powerful enough to electrocute a human being.
    Recycling lithium ion batteries is a matter of public 
safety, as well as good environmental stewardship. But 
recycling lithium ion batteries in the United States is a major 
problem. It is impossible, using current recycling technology, 
to make money from recycling most lithium ion batteries.
    The cost of shipping, storing, and recycling those 
batteries is simply greater than the revenues to be made from 
selling the recycled materials. As a consequence, fewer than 5 
percent of lithium ion batteries reaching the end of useful 
life are recycled in the United States today.
    New recycling technology, such as the direct recycling 
technology being developed at the Department of Energy's new 
ReCell Center, may in time change this dynamic. But unless and 
until it does, the only way to recycle lithium ion batteries 
will be to require consumers, directly or indirectly, to pay 
for the cost of that recycling.
    Electric vehicles and stationary energy storage of 
renewably generated electricity are powerful tools in the fight 
against greenhouse gas emissions. Imposing recycling costs on 
consumers on top of the still expensive cost of lithium ion 
batteries will inevitably impact market demand and greenhouse 
gas mitigation efforts. It is essential that recycling costs be 
kept as low as possible.
    I would respectfully recommend that the Committee consider 
four actions to protect U.S. economic competitiveness and 
greenhouse gas reduction efforts. First, ensure that any 
program requiring the recycling of high voltage lithium ion 
batteries be implemented on a consistent, nationwide basis.
    Second, encourage environmental and transportation 
regulations that differentiate between sophisticated, high 
voltage lithium ion batteries, the kind used in electric 
vehicles, and the smaller, far less consistent lithium ion 
batteries used in consumer devices.
    Third, limit the export of used lithium ion batteries in 
order to ensure a steady supply of battery materials to U.S. 
battery manufacturers.
    And fourth, fund more research into next generation 
technologies that may make recycling lithium ion batteries 
safer, cheaper, and in time, hopefully profitable.
    Thank you very much for your attention.
    [The prepared statement of Mr. Greenberger follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Thank you very much, Mr. Greenberger.
    And now, Mr. Chawan, and if you would, introduce your son 
as well.

                   STATEMENT OF AJAY CHAWAN, 
         ASSOCIATE DIRECTOR, NAVIGANT CONSULTING, INC.

    Mr. Chawan. Thank you very much for having me here today. 
Good morning, Chairman Barrasso, Ranking Member Carper, members 
of the committee.
    My name is Ajay Chawan, and I will introduce my 10-year-old 
son, J.D. Chawan, who is here to cheer me on.
    I am glad you recognized him, as he is growing up in a 
world where plugging in an EV is as natural as plugging in an 
iPad. When I would come home from work, when he was 3 years 
old, he would come in to put the plugger in the car. Now for 
people like him and his cohort, an EV is just another thing you 
plug in.
    I really appreciate the opportunity to be here with you 
today to provide testimony regarding the benefits, challenges, 
and opportunities associated with electrified transportation. I 
have worked in the EV space since 2012, and have led the effort 
to bring three electrified vehicles to market, with two 
different automakers. Currently, I am a member of the 
Transportation and Grid Team at Navigant Consulting, where I 
help organizations, including municipalities and utilities, 
transition to using electric vehicles.
    The movement toward the development and production of 
electric vehicles represents a revolution in how goods and 
people will move, and has the potential to impact numerous 
portions of our lives. Three areas I would like to touch on 
today include energy security, jobs, and health.
    Electric vehicles provide a significant opportunity to 
reduce our dependence on foreign oil. The U.S. is a net 
importer of about 854 million barrels of oil annually. For each 
consumer EV that gets put on the road, we can reduce our oil 
consumption by 25 barrels per year. The same EVs can be powered 
by electricity produced by a variety of domestic energy sources 
that employ American workers.
    The transportation sector is a significant source of 
employment in America. The consumer automotive segment alone 
directly employs over 7 million people and indirectly impacts 
millions of others who live in those communities. As the 
transportation technology advances, the nature of these jobs 
will continue to evolve. The need for workers who are skilled 
in computer programming, advanced manufacturing, and chemistry 
will continue to increase. American students who have benefited 
from emphasis on science, technology, engineering, and math, or 
STEM curriculums, will be well equipped to enter these 
technology focused spaces.
    Finally, eliminating the tailpipes on cars and trucks will 
result in cleaner air due to a reduction in particulates, 
including carbon monoxide and nitrogen oxide, from engine 
exhaust. These and other exhaust components are known to 
contribute to costly diseases, including asthma, heart disease, 
and cancer. One 2010 study found that if clean air standards 
were met in California, 30,000 emergency room visits would have 
been avoided, saving $193 million in hospital expenses for that 
State alone. EVs will help achieve those clean air standards 
nationally.
    EVs have been growing in popularity since they entered the 
market on a mass scale at the beginning of this decade. In 
2012, there were approximately 14,000 EVs sold across six 
models. In 2018, more than 225,000 vehicles were sold across 16 
models, an increase of 1,500 percentage points. Next year, 
consumers will have at least 40 models of EVs to choose from.
    For reference, total annual vehicle sales in the U.S. is 
somewhere between $15 million and $17 million, depending on how 
the economy is doing. That is across 500 units. In 2030, 
Navigant projects that there will be about 3 million EVs sold 
that year, and that 13 million EVs will be on the road in that 
year as well.
    One of the key opportunities to address with the increase 
in EV proliferation is what to do when the vehicle goes off the 
road, what do you do with that battery? I think my fellow 
panelists have addressed that point. The average life of a car 
or truck in the U.S. is about 11 years. After this time, the EV 
battery still has about 70 percent of its storage capacity 
left.
    One option receiving significant consideration today is 
using these batteries to provide backup power at critical 
locations, such as military facilities, hospitals, and data 
centers. Finding uses to give second life batteries a new home 
is an area my team is very much focused on today.
    As research and development dollars continue to flow into 
the EV battery space, their characteristics will continue to 
evolve. This includes the very elements used to make batteries 
and the methods by which they can be redeployed and later 
recycled. Our research and data shows that there are social, 
domestic energy security, economic, and societal benefits from 
electric transportation that are poised to increase in the 
coming years.
    Again, I would like to thank you for the opportunity to be 
here today. I look forward to our discussion.
    [The prepared statement of Mr. Chawan follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Thank you very much to all three of you. 
You can tell how much interest there is in this topic by the 
number of Senators who have already arrived to listen to you.
    Mr. Sanders, relatively little critical mineral mining 
occurs in the United States, even though we do have some 
mineral resources. Just last week, CNBC had an article out, and 
it discussed opportunities for Wyoming to increase our domestic 
supply of minerals. I am going to enter this article into the 
record, without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. In your testimony, you highlighted 
interest in producing critical minerals domestically. Could you 
discuss what is driving the interest, and how can we do more of 
these activities in the U.S. in an environmentally responsible 
way?
    Mr. Sanders. The interest comes from really a couple of 
different areas. Most of these materials have extremely long 
supply chains.
    Take cobalt, for instance. Most of it is mined in the 
Congo. It then goes to Asia for production of cathodes, and 
then back to wherever the country is that the battery is being 
produced.
    So it would be a much more efficient supply chain, if a 
cell is being produced here in the U.S., if the minerals and 
raw materials also came from the U.S. So that is the easiest 
one. That is a tremendous cost to the industry, of relocating 
these materials from these various areas.
    The second things is, just from an environmental 
perspective, if the U.S. can become competitive in supplying 
these materials, it then reduces our reliance on China and 
other areas basically being the leaders in this space.
    Your article on Wyoming was focused in on rare earth type 
materials. Those are very critical to electric vehicles, mostly 
in the motor and the magnet side of the equation, a little bit 
in lithium ion. But there has also been reports of lithium 
reserves in western States, Wyoming and Nevada and others.
    So there is the potential of the U.S. becoming competitive 
and supplying the critical material.
    Senator Barrasso. Can we do it in an environmentally 
responsible way?
    Mr. Sanders. I think all of these materials and mining can 
be done in a responsible way, as long as it has the right 
guidance and establishment of processes. My prior career was 
with DuPont, and we had lots of chemical processes and so forth 
that could be operated in a lot of different areas. So that 
type of thing can be set up responsibly, it just needs to have 
the right systems put in place.
    Senator Barrasso. Mr. Greenberger, in your testimony, you 
talk about the need to manage spent batteries because of the 
public safety concerns. You said if we do not properly dispose 
of high voltage lithium ion batteries, it is not a question of 
if a child wandering through a field or a junk yard would be 
electrocuted, but how many, and long it would be before we 
decide to do something about it.
    How do spent batteries pose electrocution or fire risks, 
and what should we do about it?
    Mr. Greenberger. As spent batteries are high voltage 
electric equipment, just like any high voltage electric 
equipment, someone who opens one up and touches the wrong part 
of it is likely to have a very bad outcome. So we have to do 
something to make sure that at the end of useful life, those 
batteries are removed from the environment, are decommissioned, 
disassembled, and hopefully recycled.
    There is a real public need to make sure that that happens. 
I know members of my organization very much look forward to 
working with this Committee and the Congress in trying to 
figure out exactly how best to do that.
    Senator Barrasso. Mr. Sanders, you may know about how much 
it would cost to recycle a lithium ion battery from an electric 
vehicle. Do we see that cost decreasing through new and 
innovative recycling techniques?
    Mr. Sanders. The best place to look for economics on 
recycling today is looking at what China did. They basically 
established collection facilities to basically collect the 
battery packs into a reasonable location, prepare those for 
recycling, and ship those then to a recycling center. The 
processes that have been established in China, though they are 
only at piloting level, appear to be able to, once they get to 
full commercial scale, to recover enough metals to basically 
recover the cost of the recycling piece.
    The piece that still remains a cost to the overall system 
is that collection piece. Those batteries that are collected 
and then sold in China to the recycling centers are done at the 
metals cost. So that cost piece still has to be managed in the 
value chain. That is still something that has to be worked out 
as to how exactly that manages to go forward.
    Somebody mentioned earlier the lead acid being 99 percent 
here in the U.S. That is true. But the processes established 
and the procedure there that basically got to where there were 
collection facilities in place, and also as we buy, as 
consumers, batteries in the marketplace, we also pay a 
recycling fee when we buy a battery at the local supply chain. 
So there are ways of managing those types of things, they just 
have to be figured out, what is the best way to manage that 
economically.
    Senator Barrasso. Do you have an estimate of the current 
cost to recycle a lithium ion battery from an electric vehicle?
    Mr. Sanders. From raw material all the way, or from 
basically collecting it from the spent vehicle, to the total 
reproduction, probably in the neighborhood of $5,000, depending 
on size of vehicle and so forth. The metals value is probably 
in the $3,500 range. So a substantial portion of that can be 
recovered from the metals piece of it.
    Senator Barrasso. Senator Carper.
    Senator Carper. Again, thank you all. This is fascinating 
and I believe encouraging.
    Some of our colleagues arrived mercifully after the 
Chairman and I gave our opening statements, but I just want to 
go back and reiterate one of the things I said.
    It was just announced last week, a joint venture between 
Ford and Volkswagen, to develop the next generation electric 
vehicle. These vehicles are coming, and there are going to be a 
lot more of them on the road, which I think is a good thing. 
Hopefully a lot of those vehicles are going to be made here in 
America, with components, including batteries, that are 
American.
    I have reminded my colleagues a time or two in the past 
that the Detroit Auto Show--which I go to just about every 
year--11 or 12 years ago, the car of the year was Chevrolet 
Volt, V-O-L-T, an electric hybrid, 38 miles on a charge. A year 
or 2 ago, the Chevrolet Bolt, B-O-L-T, all electric, 240 miles 
on a charge. Next year at the Detroit Auto Show, we will see 
Tesla vehicles and others getting 300 miles on a charge. This 
is coming.
    We can either be part of it and be very much invested and 
enjoined in the creation of these manufacturing jobs, the 
research and manufacturing, recycling, or not, or let somebody 
else do it. We have to be smart enough to take full advantage 
of it. As we say in Delaware, Carper diem, also known as carpe 
diem.
    I would ask this question, if I can, I want to make sure I 
pronounce your name right. Is it Chawan?
    Mr. Chawan. Chawan, yes, sir.
    Senator Carper. Thank you. In your written testimony, you 
mentioned that between 2012 and 2018, electric vehicle sales in 
our country grew by 1,500 percent. You go on to say that during 
the same time period, electric vehicle sales in China increased 
by almost 8,000 percent. The growth trend isn't expected to 
slow down any time soon.
    It is my understanding that if current trends continue, 
China could account for half of the global electric vehicle 
market share by 2025. Other countries are also adopting 
electric vehicles at a faster rate than the U.S.
    Should the elected Government support the deployment of 
electric vehicles in the U.S. to ensure that China and the rest 
of the world do not dominate the future of transportation 
electrification? In your answer would you discuss how Federal 
investments in electric vehicle charging infrastructure in this 
country would help our car manufacturers to be competitive?
    Mr. Chawan. Thank you for your question, sir. In order to 
promote EV adoption in the U.S., there are three pillars that 
we typically look at. We look at infrastructure, we look at the 
product cost, and we look at awareness. So awareness generation 
has been taking place through many activities, including 
activities by the automakers, by other third parties such as 
network operators.
    The network operators are also building infrastructure. 
There are several national network operators out there today. 
There are also network infrastructures being built by electric 
utilities, which is an area that we spend a lot of time 
focusing on as well.
    Last is the cost piece. As the proliferation of EVs 
continues, the cost per unit will continue to go down. We are 
kind of in the $6,000 per flat panel TV stage of the technology 
development curve. As more and more volume comes online, the 
economies of scale will kick in, and new manufacturing 
techniques and advances in production will enable us to bring 
the cost per unit down. That will help with the affordability 
factor of electric vehicles.
    Senator Carper. Good, thanks. Just one follow up question 
to that, if I could. Based on what you know today, do we have 
sufficient critical minerals available to be able to produce 
enough batteries to support the projected electric vehicle 
growth in our country?
    Mr. Chawan. In our country? I do not have that information, 
sir. The last--the only reference point I have is from a USGS 
report on some of the critical elements that were talked about 
today for battery production. USGS shows that the U.S. has less 
than 1 percent of global reserves of nickel, cobalt, and 
lithium.
    Senator Carper. All right. A follow up question to you, Mr. 
Chawan. In your testimony, you stated that battery research is 
happening today that if successful, would dramatically reduce 
the quantity of critical minerals needed to build and run an 
electric vehicle battery.
    My question is, how far along is this research in the U.S.? 
Do you see automakers switching from a more traditional lithium 
ion battery to a more sustainable battery? Do you agree with 
what I said in my statement that the electric vehicle batteries 
we are using today are most likely not the battery technologies 
we are going to be using 5 or 10 years from now?
    Mr. Chawan. I think there are three answers to each point 
individually. Question one was about how far battery research 
is coming along. There are numerous reports out there for what 
is the next generation of batteries commonly referred to as 
solid state, where the liquid portion of the battery is changed 
to a solid material.
    Toyota has stated it is going to have that out by 2022, and 
some reports say it could be even sooner than that. That would 
represent a major shift in battery technology.
    The question about what our batteries will look like 
several years from now versus today, the chemistry will very 
likely be different. As far as what that chemistry looks like, 
I don't know for sure.
    And I am sorry, could you repeat the other question?
    Senator Carper. Do you agree with what I said earlier in my 
statement, that the electric vehicle batteries that we are 
going to be using in 5 or 10 years are going to be different? 
That was my last part, I think you responded to that.
    Mr. Chawan. Thank you.
    Senator Carper. I am going to slip out for a little bit. We 
all have other committees that are meeting right now. In the 
Homeland Security committee, we are having an important 
roundtable discussion on push and pull factors leading to all 
the surge of people coming to our borders. So I will be going 
to that, and I will be back. I am very much interested in 
everything you have to say.
    Mr. Chairman, I am delighted that we are having this 
hearing. Thank you.
    Senator Barrasso. Thank you, Senator Carper.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    First, I want to get into the record this article in 
Fortune Magazine; it talks about some of the child labor 
problems.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Inhofe. Mr. Chawan, I have spent a lot of time in 
Africa. I know some of the problems that are there. We know 
that most of this mining we are talking about is in Congo. We 
know of some of the problems that were pointed out by the 
Chairman, the picture up here of some of the problems that I am 
very familiar with.
    We know that children are used in cobalt mining, primarily 
in the Congo, and some of the companies are taking initiatives 
to better ensure that batteries are ethically mined. What is 
your thought about that? What have we accomplished, and what 
can we do that we are not doing now?
    Mr. Chawan. The traceability of materials I think would be 
potentially another way to describe what you are referring to. 
It is definitely possible. It is done in other industries 
today. For example, the food industry does that very well. The 
auto industry does that very well for manufacturing, so we know 
precisely----
    Senator Inhofe. So you would be doing it just as well as it 
is being done right now?
    Mr. Chawan. It is being done in these other industries for 
sure. I do not have familiarity with the mining industry, so I 
cannot speak to the traceability there. I can simply state that 
there are best practices from other industries that could 
potentially be adopted for the mining industry.
    I think one of the challenges that we would see is what 
happens when you mix raw materials from multiple sources at a 
processing facility.
    Senator Inhofe. OK, it sounds like if you have any 
problems, just consult your son.
    [Laughter.]
    Senator Inhofe. Well, I actually do that. I have 20 kids 
and grandkids. I fly airplanes, and every time I get a new 
instrument for an airplane, I have my grandkids read the manual 
and explain it to me. So I am serious when I make that 
suggestion.
    [Laughter.]
    Mr. Chawan. I am happy to chat separately about this with 
your office.
    Senator Inhofe. All right. I have another article, Daily 
Caller article, to be made part of the record.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Inhofe. This covers some of the problems with the 
labor problems that are in there.
    I would like to--Mr. Sanders, this article talks about how 
California is contributing to the increased demand on cobalt. 
We know that is the case. Environmentalists claim that electric 
cars are the solution to many of the problems that we have. I 
would also suggest that maybe they are the problem than other 
solutions.
    For example, what is happening with the Highway Trust Fund 
right now, the reason it is in trouble, is primarily due to 
electric cars. Then we have the human rights concerns. Earlier 
this year, the State of California debated a bill that would 
require the State to ensure zero-emissions vehicles that they 
are free from materials using child labor. Now, that bill 
failed, and the reason is very simple: a prohibition of this 
kind would get in the way of maintaining the radical electric 
vehicle mandate.
    Unfortunately, California turned a blind eye to the human 
rights abuses.
    Mr. Sanders, could you talk about these human rights 
concerns in the remaining time?
    Mr. Sanders. Well, I think the human rights concerns are 
real. The traceability is also becoming real. Multiple OEMs, 
global OEMs have established traceability programs from the 
mines in the Congo, all the way through their supply chain. So 
it is something that can be executed. And it is being executed 
by some of the major OEMs.
    The other point that is starting to happen--Senator Carper 
pointed it out and asked, are batteries today going to be the 
same as they 5 years and 10 years from now. There are 
substantial programs to reduce the amount of cobalt that is 
contained in batteries, and potentially to go to zero-cobalt 
batteries in the very near future. Lots of universities and 
OEMs have claimed significant breakthroughs. So I think the 
percentage of cobalt per battery is likely to go down 
dramatically, which will also further improve the situation.
    Senator Inhofe. Thank you, Mr. Sanders.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thanks, Senator Inhofe.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. I very much 
appreciate your leadership, and Senator Carper's leadership, on 
this issue.
    It is clear that consumer choice for electric vehicles is 
there. We have seen the increase in demand. Consumers like it. 
It is an imperative on our environment to reduce carbon 
emissions.
    So this is clearly not only the future, it is the present. 
And we need to encourage this.
    The supply chain issues are real. I just really want to 
underscore the concerns that have been raised by my colleagues. 
We cannot allow that vulnerability for our consumers rewarding 
labor practices which are totally unacceptable, and the 
security issues of our own supply chain. So that is an issue 
that I fully support the leadership of this Committee, to look 
at alternative ways. You have mentioned legislation, Mr. 
Chairman, I think we all need to look at ways to be more secure 
in that regard.
    I want to get to the recycling issue for one moment. To me, 
that seems like low hanging fruit. As I understand it, we are 
very dependent on recycling outside the United States. We do 
not have the domestic industries here to handle the demand that 
is clearly here today, and will grow tomorrow. That reduces the 
need for a lot of these critical materials. It also is much 
friendlier toward our environment generally. And it 
economically makes sense.
    Mr. Greenberger, let me start with you. What do we do as 
Congress to encourage the robust development of domestic 
recycling for these batteries?
    Mr. Greenberger. Ultimately, what you need to do, what we 
need to do as a Nation is really encourage the development of a 
market for these products in the United States. Just to go back 
to the human rights issue that was earlier talked about, it 
really is a problem, that human rights abuses are going on in 
the Congo, and there is really nothing we can do about it, if 
China is buying 80 percent of cobalt, which is what is going on 
today. Because the Chinese don't have the same concerns that we 
do about human rights issues.
    If we built a vibrant battery industry in the United 
States, by building a vibrant industry for electric vehicles, 
suddenly we have some control over our future, or over human 
rights violations abroad, over how we recycle batteries and use 
the materials here in the United States.
    So it really does come down, for me, to the issue of, if we 
are going to be serious about competing in this new technology, 
we have to do essentially what China did, and that is build a 
domestic demand for the products. It is really important, and 
not just for cars and not even just for greenhouse gas emission 
issues, it is really important because it is the technology of 
the future, and it is going to impact a number of industries 
that are important to this country and that are going to be the 
source of jobs.
    Senator Cardin. I agree with that point. I am proud of 
Maryland; we have companies that are on the cutting edge of 
battery technology. You are right, it is well beyond just 
transportation. But it is an area where the United States 
should excel, and we are not as competitive as we need to be. 
So I completely agree with you.
    This Committee, of course, needs to look at the 
transportation infrastructure. It seems to me that by 
recycling, we not only are doing things that are smart 
economically, but we are reducing our demand on the supply 
chain. I couldn't agree with you more, we should be able to 
have control of our supply chain, and we don't. China right now 
is the dominant player on it.
    So we need to develop an entire industry. But it seems to 
me, low hanging fruit is the recycling of the batteries. What 
do we need to do to get that moving?
    Mr. Sanders.
    Mr. Sanders. One of the biggest areas that is probably the 
first challenge that we are facing is, how do we get these used 
batteries back into the supply chain. If you look at how China 
set up their model to begin with, the first step that they took 
was establishing a mandate that basically a certain percentage 
needed to be recycled. Then they established basically a 
protocol to get these things to collection centers.
    We all have probably a dozen of these things sitting in our 
house that are waste batteries and waste electronics that have 
value. If we got to having a robust collection facility 
approach, that then goes a long way. Because then you have a 
supply chain of materials that then can go into recycling, can 
go into the value chain.
    But until you get these things collected, they are 
scattered throughout the U.S. and around the world, and that is 
a huge challenge for everybody. The EU is meeting this week 
regarding these and how many of these are used in each 
different country. So they actually have data to then go, how 
big is the problem, or how big is the opportunity.
    I think that is the first step, is kind of understanding 
where these challenges are, and putting together a directive 
that basically says, here is where we are going. We may not 
know all the answers of how to get there. But until we 
basically say, we are going in this direction, it is really 
hard to get everybody motivated into one organized direction.
    Senator Cardin. I would just conclude by saying, I agree 
with you. The supply today is huge, just in order to get this 
started. But think about where we are going to be tomorrow. I 
mean, it is just going to continue to grow. And you can't put 
these policies into effect overnight. It is going to take time. 
We are already well behind where we need to be, and when we 
look at the future, it is imperative that we act quickly.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Cardin.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman, and thank all of 
you.
    We talked a lot about the core materials that are needed 
for the batteries. But we do have rare earth elements that are 
essential to some of that. You all have alluded to some of this 
in some of your testimony. It is a particular source of 
interest to me, because of what we see happening in our State 
of West Virginia. We know that the last rare earth mine closed, 
but then reopened, but they are having difficulty with their 
profitability.
    Even though they were able to mine some of the materials, 
they had to send it, my understanding is, to China to have it 
refined. That is an issue and an expense at the same time.
    So I think we need to guard ourselves against the shocks, 
the global supplies, of these rare earth elements. At West 
Virginia University, led by--I am going to call him Dr. Z, 
because that is what we call him, has been exploring technology 
to clean up the waste and generate concentrated rare earth 
elements in our coal, our fly ash, and our acid mine drainage. 
So for me, this holds great promise to solve a domestic supply 
problem for us in rare earth, but also has the environmental 
benefit of going into prior acid mine damage or fly ash, to be 
able to get some benefit out of this and clean it up at the 
same time.
    They are working with a Pennsylvania company called InnoH2O 
Solutions, and I have a letter for the record that I would like 
to submit, without objection, Mr. Chairman.
    Senator Whitehouse. Without objection, so ordered.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Capito. Thank you, thank you, Mr. Chairman----
    Senator Barrasso. In waiting.
    [Laughter.]
    Senator Capito. That is a good one.
    So anyway, I have three questions around this in 
particular. I am interested in the recycling issue as well, but 
I am going to concentrate on the rare earth.
    Can you speak to the importance of rare earth elements in 
building EVs, batteries, and drive trains? Are the costs of 
these rare earth elements disproportionate to the small volume 
that they're used in? Put another way, are they expensive 
inputs? How vulnerable do you think we are as Americans to have 
access to rare earth elements to be able to threaten this 
industry?
    I will just start with you, Mr. Sanders.
    Mr. Sanders. They are very expensive. That is probably the 
easiest one of the questions. We are very vulnerable to the 
supply chains of these materials. As you said, most of the 
refining of these, and most of the mining of these is done in 
China.
    Senator Capito. Right.
    Mr. Sanders. So that creates a significant challenge. Where 
they are really critical is in the motors and the drive train 
side of this. In the battery side, less so.
    A significant opportunity that we have not talked about 
today for the U.S. would also be natural graphite, the anode 
side of the equation here. For those States that produce coal, 
that could be an option to basically get to a natural graphite 
solution. So there are opportunities for the U.S. to 
participate here in both the battery and the EV space.
    Senator Capito. Mr. Greenberger.
    Mr. Greenberger. Again, I believe the problem with the rare 
earths and our production of rare earths in the United States 
is that the market for rare earths in the United States is 
relatively small. So we have not been willing--businesses can't 
make investments in those types of projects and hope for a 
reasonable rate of return.
    The Chinese, because they have done so much to promote 
their markets for vehicle electrification and for the other 
types of technologies that use rare earths materials, are 
really in the catbird seat when it comes to producing and 
supporting their own domestic industries. So there is no reason 
why we cannot produce rare earths in the United States, and we 
should. But the best, fastest, and most direct way to do that 
is to build up demand for products that actually will require 
rare earth materials and stand back and see what American 
businesses will do.
    Senator Capito. Right. And that seems to be sort of a 
universal thing, certainly with you, but with the panel as 
well. The market needs to develop to catch up. But for this 
particular--my particular interest on the environmental side, I 
think, is the Department of Energy has been very helpful in 
terms of helping us to develop that technology.
    Mr. Chawan.
    Mr. Chawan. Yes, I think I would echo everything the 
panelists have said.
    The other topic I would add is, as technology develops, the 
demand for rare earths is declining. So there is a new 
technology called asynchronous motors; it is a motor that in 
short, allows for better current flow into the battery for 
better torque control on your motor which provides better 
driving dynamics. It will also reduce the need for these 
materials.
    Senator Capito. But are the materials--as far as my 
knowledge is here, the materials are used in a vast other 
array. It is just creating a bigger market, better market in 
this country. Because if China has cornered the market, there 
is obviously something there, yes.
    Thank you.
    Senator Barrasso. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman. Thank you for this 
hearing.
    Some members of the Committee have expressed concerns about 
the sources of raw materials used to make electric vehicle 
batteries. As has been pointed out today, mining practices 
associated with some of the raw materials in batteries, 
particularly cobalt, raise legitimate reason for concern. 
Exploiting child labor and using unregulated mining practices 
is unacceptable. We must work to avoid these sources.
    Mr. Chawan, do all electric vehicle batteries require the 
use of cobalt?
    Mr. Chawan. For most of the technologies that are popular 
today, yes.
    Senator Markey. New alternatives, however, are being 
developed?
    Mr. Chawan. Yes, sir, they are being developed. Tesla, for 
example, has already done a great job of reducing the amount of 
cobalt that it requires. I believe it is called an 8-1-1 
configuration. I can follow up with your office with more 
details on that.
    A lot of research has been put into reducing the need for 
cobalt in EV batteries today. It was simply found that that was 
an effective solution in the beginning of this decade, when we 
were trying to develop EV batteries for the market.
    Senator Markey. So these new alternatives are very 
important, because we could focus, perhaps, on the ethical 
sourcing?
    Mr. Chawan. Precisely. If we can take away the economic 
demand for these problematically sourced materials, we can 
definitely have a positive impact that way.
    Senator Markey. So a coalition of major car manufacturers 
has committed to source cobalt ethically; Ford, LG Chem, IBM, 
Huayou Cobalt, have undertaken a blockchain project to address 
the problem in the Democratic Republic of the Congo. Potential 
applications like this are why I think we should try to promote 
the use of blockchain technology. I am the co-sponsor of a bill 
which has already passed out of the Commerce committee last 
week. We have to find solutions here, because they will 
encourage avoiding mining in vulnerable, marginalized 
communities, not only around the world, but even here in the 
United States.
    So it is important for us to ensure that the notion that 
the only choice we have is to trade one child harmed in the 
world for a child harmed here, it is just not acceptable.
    Yes, sir, Mr. Sanders.
    Mr. Sanders. In addition to block chain, standard 
traceability techniques that have been used in the food 
industry and other areas are being put in place in the Congo. 
Only about 20 percent of the mining in the Congo has the 
concern of child labor and those issues. The three major 
producers in the Congo have responsibly produced cobalt for 
quite some time.
    Multiple OEMs have established relationships with their 
mining partners and their supply chain to basically put 
traceability in place. So blockchain is an option. But standard 
traceability of shipments and understanding where it is coming 
from and ensuring that it is coming through that value chain 
has also been put in place by both U.S. OEMs and some German 
OEMs that I am aware of.
    Mr. Markey. And I want to highlight one other issue, which 
is, instead of expanding mining, we should be looking to other 
solutions, like recycling. The minerals used in these EV 
batteries are used in many electronic products, in military 
applications. I am glad to hear today from our witnesses that 
recycling can be a bipartisan solution, and would look forward 
to working together with all of us on a bipartisan basis in 
order to expand efforts in that direction.
    When Congress was faced with the environmental impacts of 
disposing of lead acid batteries, we took action to create the 
necessary incentives to recycle. We should do the same for the 
recycling of electric vehicle batteries and all of the 
materials that would be central to advancing that goal.
    Researchers in my home State of Massachusetts are advancing 
the state of lithium ion battery recycling. Companies like 
Battery Resources are finding ways to process and re-use these 
materials.
    Can you give us your insight on that issue as well?
    Mr. Chawan.
    Mr. Chawan. Yes, on the recycling?
    Senator Markey. Yes.
    Mr. Chawan. I think what we are really focusing on is 
extending the life of the battery. Once it is built, we want to 
use that battery for as long as it is humanly possible. So what 
we are doing is focusing on, what can we do when the battery 
comes out of the vehicle, and finding homes for it in other 
applications, for demand response.
    So if you can provide backup power for important facilities 
such as medical centers and data centers, you can use that 
battery for a longer period of time and delay the time that you 
need to spend time, energy, and money to break down the battery 
into its constituent components. We are hopeful, as more 
vehicles come into the market, more batteries come into the 
market, we will build up a larger bank of vehicles or batteries 
that you will hopefully start to get the economies of scale 
better needed to have a robust recycling program.
    Senator Markey. Thank you.
    Mr. Chairman, thank you.
    Senator Barrasso. Thank you very much.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chair.
    I am interested in the carbon footprint. Reading that, to 
produce an electric vehicle currently, give or take, it 
produces maybe twice the carbon impact versus an internal 
combustion engine vehicle. I want to know if that is true or 
not, or if that is roughly the dynamic. Then it begs the 
question of what the useful life is, and of course, the battery 
and so forth.
    Has there been any study--and anyone can answer this--to 
where you look at what the CAFE standards would have to go to 
in terms of miles per gallon before it would make the whole 
argument of an electric vehicle more of a moot point? Normally, 
that would seem to be something, especially if I was making a 
regular vehicle, I would want to know, well, how good would we 
need to make the mileage before it would make the whole 
argument for electric vehicles maybe less relevant, and 
addressing the fact that to produce one, it has twice the 
carbon footprint, just to get it on the road.
    Mr. Greenberger. I will try that. I have heard this 
statistic, about twice the amount of greenhouse emissions.
    Senator Braun. Yes.
    Mr. Greenberger. I have no idea where that comes from. That 
seems a little bit odd to me.
    I think certainly recycling is one of the ways that we can 
reduce the carbon footprint that it takes to produce an 
electric vehicle. But I think that we are also--it is important 
to pay attention to another issue in terms of what is really 
driving the move to vehicle electrification. Part of it is 
greenhouse gas emissions. But part of it is also is that 
everything is just electrifying. When we start putting 
automatic locks and heated seats in cars, you are moving to 
things like autonomous drive, which are huge draws of 
electricity on the vehicle, our vehicles are going to become 
electric regardless of what fuel prices do. That is just the 
way that technology is going. We are going to be riding around 
in computers on wheels. And computers don't tend to run on 
gasoline very well.
    So I think the vehicle electrification is coming for a 
number of different reasons. I don't know that just increases 
in fuel economy in the internal combustion engine are really 
going to, in the long term, significantly slow down that trend.
    Senator Braun. Fair point.
    Mr. Sanders, you had mentioned earlier roughly $5,000, was 
that the cost to rehabilitate a worn battery, or what is the 
cost of a new battery in the average EV currently, and what 
does it cost to recycle one? Is its life as long as the 
original battery once it is recycled?
    Mr. Sanders. The $5,000 was a typical battery that is in 
China now that is basically for an electric vehicle, so what 
would be here a mid-size type vehicle. There is such a range on 
each one of those pieces of data that it is hard to quote a 
given number. But the bottom line in China is, they have put 
together a collection organization, basically, that allows the 
folks doing collection and collecting the battery and readying 
for recycling to make money. Then it appears now that the 
companies that are doing the recycling, because of the metals 
value that they can recover out of the recycling process, once 
they get to commercial scale, which we are projecting at about 
20,000 units, which is not terribly big, they should be able to 
make money themselves.
    So there appears to be financially viable ways of doing 
this. But it is going to take basically that same type of 
commitment that China did to basically establish that 
directive, establish the collection process and drive it 
through the value chain. Whether it ends up being a hybrid of 
something like we did for lead acid, where there was support 
for the recycling through the value chain, or whether it is 
totally done in a different economic model here, I think is 
still to be determined.
    Senator Braun. And is the projected cost of that recycled 
battery, once you got to economy of scale, going to be less 
than the original cost of a new one? Is there any data on that? 
Because I think that would be a strong case for not only 
building the infrastructure for recycling, but it would be a 
cost savings, as long as the life of the recycled battery is 
close to what the new one would be.
    Mr. Sanders. There certainly is that opportunity for 
profitability, basically, beyond where they are taking 
recycling today. Where they are taking recycling today is to 
the metals precursors only. But there is the conversion, then, 
to the cathode, there is the conversion into the battery itself 
that basically can be done at a profitable level through the 
value chain.
    But there is also significant companies, an IP that has 
been established for conversion of those precursors into a 
battery material and into the batteries themselves. So I am not 
exactly sure how that is going to play out. That is still to be 
determined.
    But there are large organizations that have been 
established, that are battery manufacturers, that have 
established themselves as the leaders in establishing that 
value chain and establishing the recycling. So they certainly 
think that there is the opportunity there to make money through 
this value chain, and to improve profitability and 
sustainability by doing it themselves.
    Senator Braun. Thank you.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. Thank you, Chairman, and thank you for 
this hearing.
    The electric vehicle battery recycling problem falls into a 
larger context of electronics recycling generally. As you all 
know, the United Nations found that out of 45 million metric 
tons of e-waste generated globally, 20 percent gets properly 
recycled, and the rest just goes off into whatever kind of junk 
operation there is.
    A lot of that junk operation is overseas. Do any of you 
have anything nice to say about the quality, capability, 
integrity, cleanliness, effectiveness of a lot of these off the 
books overseas electronic waste disposal operations?
    Mr. Greenberger. If I may, yes. Let's make sure that 
doesn't happen.
    Senator Whitehouse. It is pretty poisonous.
    Mr. Greenberger. It is bad stuff.
    Senator Whitehouse. And it is badly handled in most of 
these overseas operations.
    Mr. Greenberger. And the good news is, if we can keep our 
waste here and turn it into products that we can use in 
domestic manufacturing, it is a double win.
    Senator Whitehouse. So let me tell you one quick story, 
which is that I have a bill just on the electronic waste that 
comes out of these things, our consumer electronics, not 
refrigerators and washing machines. And there is a group called 
the Institute of Scrap Recycling Industries, which is the trade 
association for this group. My bill would do exactly what you 
have proposed, require it to stay here, so that Americans get 
the jobs in the recycling and disassembly, so that it does not 
contribute to the poisoning of wherever this is done on the 
cheap overseas.
    ISRI has been opposing the legislation because ISRI 
members--guess what?--are invested in overseas operations. So 
they have a big conflict of interest on this. We are still 
working with them. But we have a real problem with the fact 
that some of the groups that are active in Congress on this 
subject actually are invested in some of these overseas 
operations.
    So if we are going to do this, we are going to have to 
address that fact head on. I am with you, and I hope we can do 
this.
    What is each of your best estimates on how many EVs will be 
on the road by 2040? By that, I mean cars, trucks, and buses.
    Mr. Sanders.
    Mr. Sanders. Twenty-forty is a long way out there, but we 
are projecting 3.7 million by 2030. If you stay on that same 
ballpark curve of where that is by 2030, that should put it 
somewhere in the range of 6 million.
    Senator Whitehouse. OK.
    Mr. Sanders. So at that point we would be at 6 million 
vehicles per year sold. So in addition, basically if you look 
at that----
    Senator Whitehouse. So you stack it up year over year.
    Mr. Sanders. Yes, if you stack that up basically from 
today, you would be sitting probably in the range of 50 million 
vehicles.
    Mr. Greenberger. So I am going to defer to my two witnesses 
that are in the business of collecting this data.
    Mr. Chawan. Senator Whitehouse, I have data through 2030 in 
front of me from our latest forecast. U.S. EV sales in 2030 are 
about 3 million. And the U.S. EV population in that same year, 
so total light duty vehicles on the road is about 14 million.
    Senator Whitehouse. U.S.?
    Mr. Chawan. U.S.
    Senator Whitehouse. How about globally?
    Mr. Chawan. Globally I don't have those figures. I can 
follow up with you.
    Senator Whitehouse. I will do a request for the record, a 
QFR, so you can follow up.
    Mr. Sanders. Globally, you have through 2030 in my 
testimony. There is one chart. And basically by 2030, we are 
projecting, I think it is around 11 million vehicles to be sold 
in 2030. So the cumulative, basically, if you looked at that 
from a 2040 basis, in addition to the 50 here, there would 
probably be close to 50 in Europe, and probably close to 100 
million in Asia. So 200 million vehicles, roughly.
    Senator Whitehouse. And as people who look at this market, 
I think there was an expectation that when electric vehicles 
came into the market, they would be basically glorified golf 
carts and kind of cheesy, and people would laugh at them. In 
fact, they are coming in through Audi, Jaguar, Mercedes, 
Bentley has even started displaying its concept EV.
    Mr. Sanders. Porsche.
    Senator Whitehouse. Porsche has a huge car that is actually 
coming to market right now. They are coming in, not at the 
bottom of the market like glorified golf carts, they are coming 
in at the top of the market as vehicles that compete on 
performance with Lamborghinis and cost a quarter, or a third, 
or a tenth as much. What does it say to you about adoption, 
that these vehicles are coming in at the top of the market as 
market leading, aspirational purchases, rather than as 
glorified golf carts creeping into the bottom of the market?
    Mr. Sanders. I don't know whether you all have had the 
opportunity or the fun driving experience of driving an 
electric vehicle.
    Senator Whitehouse. We have two Bolts, which is probably 
the cheapest and least exciting of all these electric vehicles. 
And it is great, it is amazing, it is a wonderful vehicle.
    Mr. Sanders. Right. The torque is incredible. The amount of 
noise is just next to nothing. And the only cost of 
maintenance, basically, that is demonstrating that it is going 
up versus going down, is tires. That is because we are all 
going a little too fast in the electric vehicles. But they are 
a hoot.
    And the breadth of vehicles that are starting to be offered 
now, you are right, there are certainly the premier vehicles 
and so forth. But if you look at some of the launches now by 
General Motors and by Volkswagen and some of the others, they 
are hitting the midstream, main focus of vehicles. We are 
projecting cost parity now for electric vehicles to happen by 
2023 to 2025.
    So when these things actually start costing equal to or 
less than internal combustion engine vehicles, that is when we 
really start hitting the curve for these things taking off.
    Senator Whitehouse. And I have overdone my time, so let me 
just ask unanimous consent to put into the record a report on 
electric vehicles being cleaner from cradle to grave.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Senator Barrasso. Senator Van Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman.
    Thank all of you for your testimony.
    I want to thank the Chairman and the Ranking Member for 
having this hearing. I think it is a really important and 
timely hearing.
    I was listening in by TV before I came here. Mr. 
Greenberger, I thought I heard you say he who makes the battery 
will ultimately make the car. Is that right?
    Mr. Greenberger. That is correct.
    Senator Van Hollen. And we also know just by looking at 
where we are today in the United States compared to China, for 
example, we are way behind. We just have a couple recent 
headlines: China is building the batteries of the future; 
electric cars, China powers the battery supply. We had 
mentioned the fact that they have a lot of natural resources in 
China.
    But they also are doing the recycling. They are doing a 
major recycling program. They have also been much more 
strategic about overseas supply operations.
    So my question is this, because we are talking about the 
future market for electric cars, we are also talking about the 
fact that China has a huge head start. If you look at their 
investment in clean energy overall from 2005 to 2018, it has 
gone up like a rocket ship. We were essentially a little bit 
ahead of them in 2005, the United States, if you looked at both 
public and private investment in clean energy. They are now way 
ahead of us, and it has been a steady incline.
    So what does that mean to all of you in terms of who is 
going to be making the cars around the world when it comes to 
the electric car industry? What would you do, if you were czar, 
if you were king for a day here in the United States, what are 
the three things that you would do, that we could do, to help 
change this?
    Mr. Greenberger, you talked about how we need to juice the 
market, you need more demand, get more people to invest. But it 
is a little bit of a chicken and egg situation, right? So 
Senator Markey and I and others have bills that would create 
more of a financing authority, kind of a green bank, a climate 
bank, to help more U.S. investment go into clean energy.
    But what are the three things each of you would do, here 
for the United States, to address the challenge that we see 
before us? If you could just give me the top three. I am 
looking for anything that also requires congressional action.
    Mr. Greenberger. Sure, first of all, I think we should look 
at history to some extent. We have seen this movie before. Ten 
years ago, we wanted the United States to get into the electric 
vehicle business, and the ARA devoted $2 billion to battery 
manufacturing in the United States and to promote electric 
vehicles.
    Those investments were not particularly successful, because 
it was sort of build it and they will come type investment. It 
didn't really pan out. Most of those projects turned out not to 
be commercially successful, and many ended up being bought by 
Chinese companies.
    China took a somewhat different approach. They decided to 
incent demand. There are 400,000 electric buses in China; there 
are 2,000 electric buses, about, in the United States. There 
were huge incentives put into electric vehicles. There was a 
market created for vehicle electrification. If you take a look 
at a lot of the things we hear about China, that we don't like 
about China, about them promoting a technology transfer, it is 
all by companies trying to access this consumer market in 
China.
    So the lesson to be learned from the last 10 years, from my 
perspective, is pay attention to market demand rather than 
technology push. That is really where the Chinese have gained 
their leverage. If you can create that market demand, however 
you are going to do it, whether that is by additional vehicle 
subsidies, whether that is by purchasing electric buses or 
heavy duty trucks for municipalities or government 
organizations, however you want to do it, if you can do that, 
you are going to be far better along than you will be of just 
trying to build a supply chain for a demand that doesn't yet 
exist on a real basis.
    Senator Van Hollen. Got it, thank you.
    Mr. Sanders. I guess the guidance that I would give us, 
don't invent the process. There are multiple examples today by 
China of establishing very clear direction and sticking with 
it. We have a tendency here of wandering in direction. And when 
you wander in direction, you get poor results. Jim mentioned 
the facilities that were built in 2008. Great intentions at the 
time.
    But the market wasn't there. And then we didn't stay with 
the program. We then went off to some other different 
direction.
    If you look at how China established clear guidance that we 
are going to electrify, now their problem for pollution was 
substantially worse than ours. So they had to do something. 
They had no choice.
    But if you look at what is happening in Europe now, you are 
getting very clear direction. Norway set deadlines, England set 
deadlines, Germany has set deadlines for when they are going to 
convert from internal combustion engines to electrified 
vehicles.
    And now the overall business infrastructure is getting 
behind that. And it gives them a clear path to basically then 
execute to do what business does well, see the opportunity and 
say, OK, the game is going to change, how am I going to 
participate in that game and win. We have the opportunity to 
win here. It is just a matter of, it has to be a clear 
direction in where we are going.
    Senator Van Hollen. Got it. Thank you.
    Mr. Chawan. What I will add to this is, continuing to 
support legislation that promotes electric vehicles, so the 
Drive American Forward Act that Senators Stabenow and Alexander 
have co-sponsored, which includes increasing the Federal tax 
credit for electric vehicles from $200,000 to $600,000 per 
manufacturer. That allows consumers to help make up that 
difference in true cost between an EV and a conventional 
vehicle, and other tax credits to that effect.
    That is what you need when you have a nascent market. As I 
said earlier in my testimony, we are still in the age of $6,000 
flat panels, we are at that early stage of the technology 
curve.
    The second thing I would do from a congressional level is 
to continue to support advanced research. So the advanced 
battery research technology that is being done is done by many 
of our national labs, including Oak Ridge and NREL. That work 
will help to create these new battery technologies that will 
have different chemistries than they have today, and that will 
enable us to bring down the overall price of the vehicle. And 
the battery is the largest component of that price today.
    Senator Van Hollen. I appreciate that.
    Mr. Chairman, I think all three have indicated you need 
national incentives and push and guidance, if I was able to get 
unanimous agreement on that.
    I do worry, we have to make sure that the politics doesn't 
get in our way up here. Because right now we are, in my view, 
losing this importance race. We got behind on 5G, and we are 
getting behind really fast. We are already behind; we have to 
catch up on this.
    Thank you.
    Senator Barrasso. Senator Carper.
    Senator Carper. Again, thank you all for your testimony. It 
has been enormously encouraging and important.
    Senator Inhofe mentioned earlier in his questioning that 
electric vehicles--I have two unanimous consent requests. But I 
think Jim in his question mentioned that vehicles are the 
primary reason, electric vehicles are the primary reason we 
face a shortfall in our Highway Trust Fund.
    While I believe we must find--I know the Chairman agrees--
we must find a way for electric vehicles to pay their fair 
share for using the roads, I would ask unanimous consent to 
insert into the record a Business Journal article on the 
purchasing power of the Highway Trust Fund. It states basically 
the 18 cent gas tax provides about 90 percent of the funds we 
need that we are using in the Trust Fund.
    That tax was set in 1993. If it had been modified for 
inflation over the last X number of years, it would be not 18 
cents, but 32 cents.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Senator Carper. Finally, I would just ask unanimous consent 
to submit for the record, Mr. Chairman, other materials 
relevant to today's discussion.
    Thank you.
    Senator Barrasso. Without objection.
    [The referenced information follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Senator Barrasso. We are sorry to run off. We are in the 
final seconds of a vote.
    Fifteen Senators attended today, which shows how much 
interest there is in what you had to say and the questions, in 
asking those.
    Others may submit questions for the record. We would ask 
for your written answers to those. The hearing is going to 
remain open for 2 weeks.
    I want to thank all of you for being here. Thank you for 
bringing your son, and thanks for discussing such an important 
issue.
    The hearing is adjourned.
    [Whereupon, at 11:29 a.m., the Committee was adjourned.]
    [Additional material submitted for the record follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    
                                 <all>
</pre></body></html>
